                                                              Federal Register / Vol. 73, No. 59 / Wednesday, March 26, 2008 / Rules and Regulations                                                    15937

                                                                                       Parts per            1. Electronically. You may submit                 section 1128A(b) of the Act 1; and (4)
                                                     Commodity                          million          electronic comments on specific                      whether an activity or proposed activity
                                                                                                         recommendations and proposals                        constitutes grounds for the imposition
                                               *          *           *           *      *               through the Federal eRulemaking Portal               of civil or criminal sanctions under
                                        Cilantro, leaves .....................                     9.0   at http://www.regulations.gov.                       sections 1128, 1128A, or 1128B of the
                                               *          *           *           *      *
                                        Leafy greens, subgroup 4A,
                                                                                                         (Attachments should be in Microsoft                  Act.
                                          except spinach ..................                        9.0   Word, if possible.)
                                                                                                            2. By regular, express, or overnight              B. OIG Final Regulations
                                        Mango ...................................                  3.0
                                               *          *           *           *      *               mail. You may send written comments                     OIG published an interim final rule
                                        Okra ......................................                4.0   to the following address: Office of
                                                                                                                                                              (62 FR 7350; February 19, 1997)
                                        Papaya ..................................                  3.0   Inspector General, Department of Health
                                               *          *           *           *      *                                                                    establishing a new part 1008 in 42 CFR
                                                                                                         and Human Services, Attention: OIG–
                                        Sapodilla ...............................                  3.0                                                        chapter V addressing various procedural
                                                                                                         223–IFC, Room 5246, Cohen Building,
                                        Sapote, black ........................                     3.0                                                        issues and aspects of the advisory
                                                                                                         330 Independence Avenue, SW.,
                                        Sapote, mamey ....................                         3.0                                                        opinion process. In response to public
                                               *          *           *           *      *               Washington, DC 20201. Please allow
                                                                                                                                                              comments received on the interim final
                                        Star apple .............................                   3.0   sufficient time for mailed comments to
                                                                                                                                                              regulations, we published a final rule
                                               *          *           *           *      *               be received before the close of the
                                                                                                                                                              (63 FR 38311; July 16, 1998) revising
                                        Vegetable, fruiting, group 8,                                    comment period.
                                          except tomato ...................                        4.0      3. By hand or courier. If you prefer,             and clarifying various aspects of the
                                                                                                         you may deliver, by hand or courier,                 earlier rulemaking. The rulemaking
                                        *        *        *        *        *                            your written comments before the close               established procedures for requesting an
                                                                                                         period to Office of Inspector General,               advisory opinion. Specifically, the rule
                                        [FR Doc. E8–6205 Filed 3–25–08; 8:45 am]                                                                              provided information to the public
                                                                                                         Department of Health and Human
                                        BILLING CODE 6560–50–S
                                                                                                         Services, Cohen Building, 330                        regarding costs associated with
                                                                                                         Independence Avenue, SW.,                            preparing an opinion and procedures for
                                                                                                         Washington, DC 20201. Because access                 submitting an initial deposit and final
                                        DEPARTMENT OF HEALTH AND                                         to the interior of the Cohen Building is             payment to OIG for such costs.
                                        HUMAN SERVICES                                                   not readily available to persons without             II. Provisions of the Interim Final Rule
                                        Office of the Secretary                                          Federal Government identification,
                                                                                                         commenters are encouraged to schedule                   By statute, the Department must
                                        Office of Inspector General                                      their delivery with one of our staff                 charge a fee equal to the costs incurred
                                                                                                         members at (202) 358–3141.                           by the Department in responding to a
                                                                                                            For information on viewing public                 request for an advisory opinion. (42
                                        42 CFR Part 1008
                                                                                                         comments, please see section IV in the               U.S.C. 1320a–7d(b)(5)(B)(ii)). Under the
                                        Medicare and State Health Care                                   SUPPLEMENTARY INFORMATION section                    interim final and final advisory opinion
                                        Programs: Fraud and Abuse; Issuance                              below.                                               rules, we directed requestors to make an
                                        of Advisory Opinions by OIG                                      FOR FURTHER INFORMATION CONTACT:                     initial payment to the U.S. Treasury by
                                                                                                         Meredith Melmed, Office of Counsel to                check or money order in the amount of
                                        AGENCY:  Office of Inspector General                                                                                  $250. The regulations have also allowed
                                        (OIG), HHS.                                                      the Inspector General, (202) 619–0335.
                                                                                                         SUPPLEMENTARY INFORMATION:                           for the acceptance of final payment of
                                        ACTION: Interim final rule with comment                                                                               the fee by check or money order.
                                        period.                                                          I. Background
                                                                                                                                                                 Through this interim final rule, we are
                                        SUMMARY: In accordance with section                              A. Section 205 of Public Law 104–191                 setting forth several revisions to the
                                        205 of the Health Insurance Portability                            The Health Insurance Portability and               payment process for advisory opinion
                                        and Accountability Act of 1996, this                             Accountability Act of 1996 (HIPAA),                  requests. Specifically, we are modifying
                                        final rule amends the OIG regulations at                         Public Law 104–101, specifically                     our procedures for submitting an
                                        42 CFR part 1008 by (1) revising the                             required the Department to provide a                 advisory opinion request by deleting the
                                        process for advisory opinion requestors                          formal guidance process to requesting                current requirements at §§ 1008.31(b)
                                        to submit payments for advisory                                  individuals and entities regarding the               and 1008.36(b)(6) for an initial payment
                                        opinion costs, and (2) clarifying that                           application of the anti-kickback statute,            of $250 for each advisory opinion
                                        notices to the public announcing                                 the safe harbor provisions, and other                request, and replacing the existing
                                        procedures for processing advisory                               OIG health care fraud and abuse                      provision set forth in § 1008.31(b) with
                                        opinion requests will be published on                            sanctions. In accordance with section                a requirement that payment for an
                                        OIG’s Web site.                                                  205 of HIPAA, the Department, in                     advisory opinion be made directly to the
                                        DATES: Effective Date: These regulations                         consultation with the Department of                  Treasury of the United States, as
                                        are effective on April 25, 2008.                                 Justice, issues written advisory opinions            directed by OIG. In addition, we are
                                           Comment Period: To assure                                     to parties with regard to: (1) What                  amending § 1008.43(d) to state that an
                                        consideration, public comments must be                           constitutes prohibited remuneration                  advisory opinion will be issued
                                        delivered to the address provided below                          under the anti-kickback statute; (2)                 following receipt by OIG of
                                        by no later than 5 p.m. on April 25,                             whether an arrangement or proposed                   confirmation that payment in full has
                                        2008.                                                            arrangement satisfies the criteria in                been remitted by the requesting party to
                                        ADDRESSES: In commenting, please refer                           section 1128B(b)(3) of the Social                    the Department of Treasury as directed
                                        to file code OIG–223–IFC. Because of                             Security Act (the Act), or established by            by OIG.
sroberts on PROD1PC70 with RULES




                                        staff and resource limitations, we cannot                        regulation, for activities which do not
                                                                                                                                                                1 Public Law 104–191 erroneously cited this
                                        accept comments by facsimile (FAX)                               result in prohibited remuneration; (3)
                                                                                                                                                              provision as section 1128B(b) of the Act. Section
                                        transmission.                                                    what constitutes an inducement to                    4331(a) of the Balanced Budget Act of 1997, Public
                                           You may submit comments in one of                             reduce or limit services to Medicare or              Law 105–33, corrected this citation to section
                                        three ways (no duplicates, please):                              Medicaid program beneficiaries under                 1128A(b) of the Act.



                                   VerDate Aug<31>2005        16:40 Mar 25, 2008      Jkt 214001   PO 00000   Frm 00077   Fmt 4700   Sfmt 4700   E:\FR\FM\26MRR1.SGM   26MRR1
                                        15938            Federal Register / Vol. 73, No. 59 / Wednesday, March 26, 2008 / Rules and Regulations

                                        A. Electronic Payment Directly to the                   which OIG will accept and/or analyze a                Law 104–4, requires that agencies assess
                                        U.S. Treasury                                           request. OIG expects that this rule will              anticipated costs and benefits before
                                          As of the effective date of this rule, we             further the public’s interest in minimal              issuing any rule that may result in
                                        will no longer accept checks or money                   burden by deleting the requirement for                expenditures in any one year by State,
                                        orders from requesting parties and will                 an initial payment of a deposit to be                 local or tribal governments, in the
                                        require payments to be made directly to                 credited toward the final advisory                    aggregate, or by the private sector, of
                                        the United States Treasury through wire                 opinion processing costs and by                       $110 million. Since the rule merely
                                        or other electronic funds transfer.                     allowing the use of electronic transfers              revises the process for paying for
                                        Changing the requirement that payment                   of funds. The rule will also provide                  advisory opinions and creates greater
                                        be made by check or money order to                      greater efficiency in processing                      efficiencies in processing payments, we
                                        provide for wire or other electronic                    payments from requestors and will save                believe that this rule that will not
                                        funds transfers will create efficiencies in             staff time.                                           impose any mandates on State, local, or
                                        processing payments for advisory                                                                              tribal governments or the private sector
                                                                                                B. Regulatory Analysis
                                        opinion requests, reduce the use of staff                                                                     that would result in an expenditure of
                                                                                                  We have examined the impact of this                 $110 million or more (adjusted for
                                        resources to process such payments, and
                                                                                                rule as required by Executive Order                   inflation) in any given year, and that a
                                        reduce the burden on requesting parties.
                                                                                                12866, the Unfunded Mandates Reform                   full analysis under the Unfunded
                                        B. Elimination of Initial Deposit                       Act of 1995, the Regulatory Flexibility               Mandates Reform Act is not necessary.
                                           We are also eliminating the initial                  Act (RFA) of 1980, and Executive Order
                                                                                                13132.                                                Regulatory Flexibility Act
                                        deposit payment from the requirements
                                        for submitting an advisory opinion                                                                              The RFA and the Small Business
                                                                                                Executive Order 12866
                                        request. A deposit is not required by                                                                         Regulatory Enforcement and Fairness
                                                                                                   Executive Order 12866 directs                      Act of 1996, which amended the RFA,
                                        statute. We believe that deleting the
                                                                                                agencies to assess all costs and benefits             require agencies to analyze options for
                                        initial deposit payment will further
                                                                                                of available regulatory alternatives and,             regulatory relief of small entities. For
                                        streamline the electronic payment
                                                                                                if regulations are necessary, to select               purposes of the RFA, small entities
                                        process and will eliminate
                                                                                                regulatory approaches that maximize                   include small businesses, certain
                                        administrative burdens that may arise if
                                                                                                net benefits (including potential                     nonprofit organizations, and small
                                        an initial deposit must be returned. For
                                                                                                economic, environmental, public health,               governmental jurisdictions. Individuals
                                        instance, where parties erroneously
                                                                                                and safety effects; distributive impacts;             and States are not included in the
                                        submit requests that are wholly outside
                                                                                                and equity). A regulatory impact                      definition of a small entity. The RFA, as
                                        our authority to issue an advisory
                                                                                                analysis must be prepared for major                   amended, requires an agency to prepare
                                        opinion, such as requests regarding
                                                                                                rules with economically significant                   and make available to the public a
                                        issues arising under the physician self-
                                                                                                effects (i.e., $100 million or more in any            regulatory flexibility analysis that
                                        referral law (42 U.S.C. 1395nn),
                                                                                                given year).                                          describes the effect of a proposed rule
                                        returning funds submitted directly to                      This is not a major rule, as defined at
                                        the Department of Treasury would be                                                                           on small entities when the agency is
                                                                                                5 U.S.C. 804(2), and it is not                        required to publish a general notice of
                                        cumbersome. In addition, eliminating                    economically significant since the
                                        the initial deposit requirement will                                                                          proposed rulemaking for any proposed
                                                                                                overall economic effect of the rule is                rule. Because this rule is being issued as
                                        reduce the burden on requesting parties                 less than $100 million annually. As
                                        by consolidating the parties’ payment                                                                         an interim final rule, on the grounds set
                                                                                                indicated in Section II of this preamble,             forth above, a regulatory flexibility
                                        obligations into one final payment. We                  this rule deals exclusively with the
                                        will provide additional instructions to                                                                       analysis is not required under the RFA.
                                                                                                procedural issues involved in the
                                        the public on our Web site (http://                     payment for advisory opinions issued                  Executive Order 13132
                                        www.oig.hhs.gov) for paying fees owed                   by OIG. This rule does not address the                   Executive Order 13132, Federalism,
                                        for advisory opinions via wire or other                 substance of the anti-kickback statute or             establishes certain requirements that an
                                        electronic funds transfer.                              other sanction statutes. This rule does               agency must meet when it promulgates
                                        III. Regulatory Impact Statement                        not change any costs associated with                  a rule that imposes substantial direct
                                                                                                requesting an advisory opinion, but,                  requirements or costs on State and local
                                        A. Administrative Procedure Act                         rather, clarifies the procedures for                  governments, preempts State law, or
                                           OIG has determined that the public                   submitting statutorily-mandated                       otherwise has Federalism implications.
                                        notice and comment requirements of the                  payment for costs incurred preparing an               In reviewing this rule under the
                                        Administrative Procedure Act, 5 U.S.C.                  advisory opinion. We believe that the                 threshold criteria of Executive Order
                                        553(b), do not apply to this rule because               aggregate economic impact of this rule                13132, we have determined that this
                                        the rule is procedural in nature and                    will be minimal and will have no effect               rule would not significantly limit the
                                        does not alter the substantive rights of                on the economy or on Federal or State                 rights, roles, and responsibilities of
                                        the affected parties. Therefore, this rule              expenditures. To the extent that there is             State or local governments. We have
                                        satisfies the exemption from notice and                 any economic impact, that impact will                 determined, therefore, that a full
                                        comment rulemaking in 5 U.S.C.                          likely result in savings of Federal                   analysis under Executive Order 13132 is
                                        553(b)(A). OIG nevertheless invites                     dollars through the improved                          not necessary.
                                        comments on this rule and will consider                 efficiencies in the use of staff resources               The Office of Management and Budget
                                        all timely submitted comments.                          for processing advisory opinion requests              (OMB) has reviewed this rule in
                                           The advisory opinion process is an                   and payments related to advisory                      accordance with Executive Order 12866.
                                        established OIG program. This rule is                   opinion requests, as well as savings for
                                                                                                                                                      C. Paperwork Reduction Act
sroberts on PROD1PC70 with RULES




                                        limited to modifying the processing of                  parties that request advisory opinions.
                                        payments received for advisory opinion                                                                          In accordance with section
                                        requests. It does not modify eligibility of             Unfunded Mandates Reform Act                          3506(c)(2)(A) of the Paperwork
                                        a party to request an advisory opinion,                  Section 202 of the Unfunded                          Reduction Act of 1995, we are required
                                        nor does it modify the standards under                  Mandates Reform Act of 1995, Public                   to solicit public comments, and receive


                                   VerDate Aug<31>2005   16:40 Mar 25, 2008   Jkt 214001   PO 00000   Frm 00078   Fmt 4700   Sfmt 4700   E:\FR\FM\26MRR1.SGM   26MRR1
                                                         Federal Register / Vol. 73, No. 59 / Wednesday, March 26, 2008 / Rules and Regulations                                         15939

                                        final OMB approval, on any information                  properly paid by the requestor, OIG will              includes CAS 401, 402, 405, and 406
                                        collection requirements set forth in                    issue the advisory opinion and                        (see 9903.201–2(b)). In conjunction with
                                        rulemaking.                                             promptly mail it to the requestor by                  the revised definition of modified
                                           This rule will not impose any                        regular first class U.S. mail.                        coverage, the Board also amended the
                                        information collection burden or affect                   Dated: January 30, 2008.                            clause at 9903.201–4(c) to include CAS
                                        information currently collected by OIG.                                                                       405 and 406. However, the Board did
                                                                                                Daniel R. Levinson,
                                                                                                                                                      not change the requirement that foreign
                                        IV. Inspection of Public Comments                       Inspector General.
                                                                                                                                                      concerns comply with only CAS 401
                                           All comments received before the end                   Approved: February 28, 2008.                        and 402. As a result, the contract clause
                                        of the comment period are available for                 Michael O. Leavitt, Secretary.                        at 9903.201–4(c) could not be used for
                                        viewing by the public. All comments                     [FR Doc. E8–6164 Filed 3–25–08; 8:45 am]              foreign concerns without modification
                                        will be posted on http://                               BILLING CODE 4152–01–P                                by the parties.
                                        www.regulations.gov as soon as possible                                                                          This final rule provides a clause for
                                        after they have been received.                                                                                use in contracts with foreign concerns
                                        Comments received timely will also be                   OFFICE OF MANAGEMENT AND                              that will not require modification.
                                        available for public inspection as they                 BUDGET                                                Except that it includes only CAS 401
                                        are received at Office of Inspector                                                                           and 402, this clause is identical to the
                                        General, Department of Health and                       Office of Federal Procurement Policy                  clause currently applicable to contracts
                                        Human Services, Cohen Building, 330                                                                           subject to modified coverage. To effect
                                        Independence Avenue, SW.,                               48 CFR Part 9903                                      this change, this final rule amends
                                        Washington, DC 20201, Monday                                                                                  9903.201–4, Contract Clauses, to
                                        through Friday of each week from 8:30                   Cost Accounting Standards Board;                      include the new clause at (f), Disclosure
                                        a.m. to 4 p.m. To schedule an                           Contract Clauses                                      and Consistency of Cost Accounting
                                        appointment to view public comments,                    AGENCY:  Cost Accounting Standards                    Practices—Foreign Concerns.
                                        phone (202) 619–0089.                                                                                            The Board received no public
                                                                                                Board, Office of Federal Procurement
                                                                                                                                                      comments in response to the proposed
                                        List of Subjects in 42 CFR Part 1008                    Policy, OMB.
                                                                                                                                                      rule and has adopted the proposed rule
                                                                                                ACTION: Final rule.                                   as a final rule without change.
                                          Administrative practice and
                                        procedure, Fraud, Grant programs—                       SUMMARY: The Cost Accounting                          B. Paperwork Reduction Act
                                        health, Health facilities, Health                       Standards (CAS) Board has adopted,
                                        professions, Medicaid, Medicare,                                                                                 The Paperwork Reduction Act, Public
                                                                                                without change, a final rule to add a
                                        Penalties.                                                                                                    Law 96–511, does not apply to this
                                                                                                clause for inclusion in CAS-covered
                                                                                                                                                      rulemaking, because this rule imposes
                                        ■ Accordingly, 42 CFR chapter V,                        contracts and subcontracts awarded to
                                                                                                                                                      no paperwork burden on offerors,
                                        subchapter B is mended as set forth                     foreign concerns. The Board is taking
                                                                                                                                                      affected contractors and subcontractors,
                                        below:                                                  this action to provide a standard clause
                                                                                                                                                      or members of the public which requires
                                                                                                for use by Government and contractor
                                        PART 1008—[AMENDED]                                                                                           the approval of OMB under 44 U.S.C.
                                                                                                personnel in applying the CAS
                                                                                                                                                      3501, et seq.
                                        ■ 1. The authority citation for part 1008               requirements to contracts and
                                        continues to read as follows:                           subcontracts awarded to foreign                       C. Regulatory Flexibility Act, Unfunded
                                                                                                concerns.                                             Mandates Reform Act, Congressional
                                            Authority: 42 U.S.C. 1320a–7d(b)                                                                          Review Act, and Executive Orders
                                                                                                DATES: Effective Date: April 25, 2008.
                                        ■ 2. Section 1008.31 is amended by                      FOR FURTHER INFORMATION CONTACT:
                                                                                                                                                      12866 and 13132
                                        revising paragraph (b) to read as follows:              Laura Auletta, Manager, Cost                             The Board certifies that this rule will
                                                                                                Accounting Standards Board, 725 17th                  not have a significant effect on a
                                        § 1008.31 OIG fees for the cost of advisory
                                        opinions.                                               Street, NW., Room 9013, Washington,                   substantial number of small entities
                                                                                                DC 20503 (telephone: 202–395–3256).                   within the meaning of the Regulatory
                                        *     *      *     *     *                                                                                    Flexibility Act, 5 U.S.C. 601, et seq.,
                                                                                                Reference CAS–2007–01F.
                                          (b) Payment Method. Payment for a                                                                           because small businesses are exempt
                                        request for an advisory opinion must be                 SUPPLEMENTARY INFORMATION:
                                                                                                                                                      from the application of the Cost
                                        made to the Treasury of the United                      A. Background                                         Accounting Standards. For purposes of
                                        States, as directed by OIG.                                                                                   the Unfunded Mandates Reform Act of
                                                                                                   The CAS Board published a proposed
                                        *     *      *     *     *                              rule on June 14, 2007 (72 FR 32829) to                1995, as well as Executive Orders 12866
                                        ■ 3. Section 1008.36 is amended by                      provide a clause for use in contracts                 and 13132, the final rule will not
                                        removing paragraph (b)(6) and                           with foreign concerns. Prior to                       significantly or uniquely affect small
                                        redesignating paragraphs (b)(7) and                     November 4, 1993, modified CAS                        governments, does not have federalism
                                        (b)(8) as (b)(6) and (b)(7) respectively.               coverage required a contractor to                     implications, and will not result in
                                        *     *      *     *     *                              comply with only CAS 401 and CAS                      increased expenditures by State, local,
                                        ■ 4. Section 1008.43 is amended by                      402. Similarly, 9903.201–1(b)(4)                      and tribal governments, or by the
                                        revising paragraph (d) to read as                       required that foreign concerns comply                 private sector, of $100 million or more.
                                        follows:                                                with only CAS 401 and 402. Thus, prior                In addition, the Board has determined
                                                                                                to November 4, 1993, the contract clause              that this rule is not economically
                                        § 1008.43    Issuance of a formal advisory              at 9903.201–4(c) was used for both                    significant under the provisions of
                                        opinion.                                                contracts with modified coverage and                  Executive Order 12866 or otherwise
sroberts on PROD1PC70 with RULES




                                        *     *     *     *    *                                contracts with foreign concerns.                      subject to Executive Order 12866
                                          (d) After OIG has notified the                           However, on November 4, 1993, the                  review. Finally, the final rule is not a
                                        requestor of the full amount owed and                   Board revised the definition of modified              ‘‘major rule’’ under 5 U.S.C. Chapter 8;
                                        OIG has determined that the full                        coverage to include CAS 405 and 406,                  the rule will not have any of the effects
                                        payment of that amount has been                         so that modified coverage currently                   set forth in 5 U.S.C. 804(2).


                                   VerDate Aug<31>2005   16:40 Mar 25, 2008   Jkt 214001   PO 00000   Frm 00079   Fmt 4700   Sfmt 4700   E:\FR\FM\26MRR1.SGM   26MRR1
